                                                               I   I
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: AlO090073                                                                       Pagel of 1



                 NSF OIG received an allegation of plagiarism reg§lrding five proposals I the Subject2
          submitted. After a preliminary review, only three of the proposals warranted further review. 3

                 We contacted the Subject regarding the allegation. Based on the response, we determined
         two of the three proposals4 contained de minimis plagiarism, and removed these proposals from
         reVIew.

                  The remaining proposal 5 was submitted collaboratively6 with a PI (PI 2f from a different
         institution. s We contacted PI 2 regarding the allegation. Based on PI 2's response, we
         determined four of the seven alleged sources contained text that PI 2 authored or co-authored.
         Copied text from the remaining three sources constituted de minimis plagiarism.

                We sent the Subject a letter emphasizing the need to be more vigilant regarding
         appropriate citation. Accordingly, this case is closed.




NSF OIG Form 2 (I 1/02)
